<html>
<title> - OPTIONS FOR THE INTERIM AND LONG-TERM STORAGE OF NUCLEAR WASTE AND S. 1234, THE NUCLEAR WASTE ADMINISTRATION ACT</title>
<body><pre>[Senate Hearing 116-311]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-311

              OPTIONS FOR THE INTERIM AND LONG-TERM 
                STORAGE OF NUCLEAR WASTE AND S. 1234, 
                THE NUCLEAR WASTE ADMINISTRATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-808                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Rory Stanley, Democratic Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     2

                               WITNESSES

Korsnick, Maria, President and Chief Executive Officer, Nuclear 
  Energy Institute...............................................     4
Norton, Wayne, Chair, Decommissioning Plant Coalition Steering 
  Committee, and President & CEO, Yankee Atomic Electric Company.    14
Nesbit, Steven P., Chair, Nuclear Waste Policy Task Force, on 
  behalf of the American Nuclear Society.........................    23
Fettus, Geoffrey H., Senior Attorney, Natural Resources Defense 
  Council, Inc...................................................    37
Wagner, Dr. John, Associate Laboratory Director, Nuclear Science 
  and Technology Directorate, Idaho National Laboratory..........    79

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Fettus, Geoffrey H.:
    Opening Statement............................................    37
    Written Testimony............................................    39
    Responses to Questions for the Record........................   138
Garcia Richard, Hon. Stephanie:
    Letter for the Record........................................    96
Korsnick, Maria:
    Opening Statement............................................     4
    Written Testimony............................................     7
    Responses to Questions for the Record........................   131
Lujan Grisham, Hon. Michelle:
    Letter for the Record........................................    94
Manchin III, Hon. Joe:
    Opening Statement............................................     2
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Conference of State Legislatures:
    Letter for the Record........................................   147
Nesbit, Steven P.:
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................   135
Nevada Agency for Nuclear Projects:
    Statement for the Record.....................................   103
Norton, Wayne:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................   134
Nye County (Nevada) Board of Commissioners:
    Letter for the Record........................................   149
Rosen, Hon. Jacky:
    Statement for the Record.....................................   113
Union of Concerned Scientists:
    Statement for the Record.....................................   152
Wagner, Dr. John:
    Opening Statement............................................    79
    Written Testimony............................................    81
    Responses to Questions for the Record........................   142

 
 OPTIONS FOR THE INTERIM AND LONG-TERM STORAGE OF NUCLEAR WASTE AND S. 
               1234, THE NUCLEAR WASTE ADMINISTRATION ACT

                              ----------                              


                        THURSDAY, JUNE 27, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are meeting to examine an issue that effectively we have 
been at a stalemate for quite some time--what we should do with 
the used nuclear fuel that is accumulating at our nation's 
nuclear reactors.
    As a starting point, I think we should recognize that 
nuclear energy is an important part of our country's electric 
generation mix. I believe it is a vital part of our mix. The 
large reactors that dot the landscape provide reliable, 
emissions-free power to communities across our country. Our 
nation's nuclear industry is critically important but it also 
faces a number of challenges, and one that has impacted it 
since the first reactors began operation is nuclear waste 
disposition.
    Beginning with the passage of the Nuclear Waste Policy Act 
in 1982, Congress has attempted several times to address the 
back end of the fuel cycle. In an effort to resolve an earlier 
stalemate, the Federal Government was supposed to begin taking 
title to used fuel and moving it to a repository at Yucca 
Mountain in Nevada, beginning in 1998. The Federal Government's 
failure to deliver on this promise is now costing taxpayers up 
to $2 million per day.
    This hearing is an opportunity for us to consider our next 
steps on nuclear waste. Do we continue to delay in the face of 
stalemate over Yucca, or do we try to find another path forward 
for used fuel storage, especially for communities that are 
maintaining sites with only used fuel casks left on hand, with 
the rest of the plant decommissioned?
    In 2010, then Secretary of Energy, Steven Chu, convened the 
Blue Ribbon Commission on America's Nuclear Future to conduct a 
comprehensive review of policies for managing the back end of 
the fuel cycle. The Commission's report included a number of 
recommendations and led to the introduction of the Nuclear 
Waste Administration Act. Over the years, this legislation has 
been led by a number of members, including Senators Wyden and 
Alexander, both on this Committee. I have been a sponsor of the 
legislation all along with Senators Alexander and Feinstein, my 
partners on the Energy and Water Appropriations Subcommittee, 
for multiple Congresses, now.
    We have been at this for a while, and I think it is 
probably fair to say we would like to put something behind us 
at some point in time here sooner rather than later. Our 
legislation aims to move the process forward so that we can 
finally move used fuel to a permanent repository. Our bill 
creates a Nuclear Waste Administration to oversee consent-based 
siting for interim storage and an additional repository that 
could be located in states and communities that want it. Our 
bill also prioritizes the removal of orphaned used fuel at 
decommissioned reactor sites for temporary storage at 
consolidated sites.
    Our bill is S. 1234. I wish it was as easy as one, two, 
three, four. We know it requires some updates and that there 
are a number of ideas to improve specific sections, so I 
welcome those. I look forward to the testimony from our 
distinguished panel this morning, but I would also welcome 
thoughts and comments from others.
    Ultimately, I hope we can all agree that it is long, long, 
past time to figure this out and the sooner we find a path 
forward, the better. It has been six years now since I and 
others cosponsored this legislation. We are in the same place. 
We are effectively in the same place when it comes to the back 
end of the fuel cycle as when we introduced that legislation 
six years ago. But in that time we have seen tremendous 
progress in the area of nuclear with our advanced nuclear 
reactors. The United States has the ability to lead the world 
on some of these technologies, but without a solution on 
nuclear waste, I believe that we are less likely to realize our 
full potential there. We are here today to start, or perhaps we 
need to say restart, the conversation.
    I know that Chairman Barrasso has a bill on nuclear waste 
in his EPW Committee. He is keen to move forward on it. I am 
glad to see that we have some renewed interest across Congress 
to address the challenge.
    It is a good thing that we have multiple options on the 
table. I think this is a positive development, and I sincerely 
hope that we can move forward on nuclear waste after decades of 
inaction.
    With that, I turn to my Ranking Member and friend, Senator 
Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Chair Murkowski, thank you for having a 
hearing on the Nuclear Waste Administration Act, and I want to 
thank all of our witnesses for being here today who will 
provide us with ideas of how to move forward and break our 
nuclear repository impasse.
    Nuclear energy will continue to be an important part of our 
nation's energy mix. It is reliable, especially in adverse 
weather. The fact is, it is the nation's largest zero emission 
power source which means that it is a powerful tool in our 
fight to mitigate climate change and move toward a zero 
emissions economy.
    We will continue to rely on nuclear, thus we must work on a 
solution to dispose of nuclear waste. I believe this bill 
provides a solid foundation to work from which originated with 
the bipartisan Blue Ribbon Commission on America's nuclear 
future.
    But I think there is an agreement among us that changes 
must be made to the current text before moving forward. 
Providing an equitable policy path forward for site selection 
is something that I support as the inequity in the site 
selection is a large part of the current impasse.
    Since the National Academy of Sciences 1957 report 
recommending deep geologic disposal for highly radioactive 
waste, it is clear what we need to do with the nuclear waste. 
The prudent and responsible thing to do is to bury this waste 
deep in the earth to protect the environment and public for 
generations to come. Unfortunately, the path to achieve this is 
not entirely clear.
    I look forward to hearing from our panel today and from my 
colleagues, many of whom represent constituencies that deal 
with nuclear waste on a day-to-day basis.
    In particular, I want to thank Chairman Murkowski and 
Senator Cortez Masto for their ongoing leadership on this 
issue. If we have learned anything in the past 30 years, it is 
that social and political concerns need to be taken into 
account to site and construct a repository. That is not to say 
that technical considerations are not important, but I trust 
the highly skilled individuals at the national labs and their 
partners to solve issues that we will face in constructing 
storage solutions at whatever site or sites that are selected.
    What Congress should focus on are the mechanisms that can 
drive buy-in from communities. Other countries in the world 
have success by creating an organization that is separate from 
an agency or governing body but still regulated by the 
government to work with communities to build a repository in 
their respective backyards.
    In 1987 Congress decided to not go with the original 
Nuclear Waste Policy Act language that directed the Department 
of Energy to characterize several sites and then make a 
recommendation. Instead, due to the price tag associated with 
the characterization of several sites, Congress instead 
legislated this site choice. This action politicized the site 
selection process while simultaneously discrediting the Federal 
Government.
    It is my hope that following the markup of this bill, it 
will be equitable in how it considers all sites so when a site 
or sites are selected, we know it was a fair process and can 
move forward accordingly.
    Let us not forget that there is urgency to this issue. 
Spent fuel pools such as reactors are at capacity and in need 
to mitigate carbon emission and ensures that reactors will 
continue to operate in this country for decades to come. On top 
of that, failing to act means that the Federal Government is 
racking up more liability to be paid to the utilities to store 
this waste in their own private storage facilities adjacent to 
the reactors.
    So the taxpayer is on the hook here to the tune of about $2 
million a day with an estimated overall liability of $34.1 
billion. Like it or not, this means that we already have a de 
facto interim storage program in this country that is 
inefficient and lacks cost-effectiveness.
    While we don't have any nuclear waste in West Virginia, nor 
do we have nuclear reactors, I am invested in working with my 
colleagues on this issue because preserving and growing nuclear 
power is key to addressing the climate crisis.
    I want to share with you. The Chairman and I had an 
opportunity to spend some time with Bill Gates and he went 
through boom, boom, boom, country, by country, by country that 
has nuclear power, all going to zero in a time and era when we 
want to have zero emissions. Something has to be done, and we 
need to act urgently.
    Once again, I would like to thank Chairman Murkowski for 
holding this hearing at the most appropriate time and I think 
much needed, not just for the United States of America, but for 
the world.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    Let's turn now to our panel. We have a very distinguished 
panel, as I mentioned.
    We are joined this morning by Maria Korsnick, who is the 
President and CEO of Nuclear Energy Institute, NEI. You have 
been before the Committee many times. We welcome you back.
    Mr. Wayne Norton is the Chair for the Decommissioning Plant 
Coalition Steering Committee, also President and CEO of the 
Yankee Atomic Electric Company. We appreciate you being here 
this morning.
    Steven Nesbit is the Chair of the American Nuclear Society, 
Nuclear Waste Policy Task Force. We thank you for your 
leadership with that important task force.
    Geoffrey Fettus is the Senior Attorney at the Nuclear, 
Climate and Clean Energy Program for the Natural Resource 
Defense Council, NRDC. We welcome you to the Committee.
    And Dr. John Wagner is with us from one of our national 
labs. He is the Associate Laboratory Director for Nuclear 
Science and Technology Directorate at the Idaho National Lab 
(INL). We appreciate your leadership in these spaces as well.
    We will begin with you, Ms. Korsnick. If you can provide 
your comments to the Committee, we ask that you try to keep 
your comments to about five minutes. Your full statements will 
be included as part of the record. When the full panel has 
concluded, we will have an opportunity for questions. Thank 
you.

  STATEMENT OF MARIA KORSNICK, PRESIDENT AND CHIEF EXECUTIVE 
               OFFICER, NUCLEAR ENERGY INSTITUTE

    Ms. Korsnick. Great, thank you very much.
    I'm Maria Korsnick, President and CEO of the Nuclear Energy 
Institute.
    Chairman Murkowski and Ranking Member Manchin, I greatly 
appreciate the opportunity to provide testimony of the Nuclear 
Waste Administration Act of 2019. NEI sincerely appreciates the 
Committee's deliberate effort to develop an effective federal 
used fuel management program.
    Since this bill was first introduced in 2013, several 
things have changed. Because of a court order, the Department 
of Energy has reduced the nuclear waste fee fund to zero. The 
Nuclear Regulatory Commission technical staff has also 
completed reviews of the Yucca Mountain licensing application 
concluding that Yucca Mountain complies with all regulation. 
Finally, private initiatives are now underway to develop 
consolidated storage facilities into states.
    Nuclear energy is the largest and most efficient source of 
carbon-free electricity in the United States. Currently, 97 
commercial nuclear power plants in 29 states provide nearly 20 
percent of America's electricity and more than half of the 
emissions-free electricity. These reactors are carbon-free 
workhorses essential to addressing climate change in any 
realistic manner. That said, the advanced reactors of tomorrow 
in the U.S. operating fleet at large are continually subjected 
to reputational damage because Congress, for two decades now, 
has played politics with the issue of used fuel.
    It's vitally important that the U.S. remain a global leader 
in the commercial nuclear arena, and yet we are the only major 
nuclear nation without a used fuel management program. The U.S. 
nuclear industry has upheld its end of the bargain at sites in 
35 states around the country, commercial used fuel is safely 
stored and managed awaiting pick up by the Federal Government 
which was scheduled for 1998.
    In addition, the nuclear waste fund, which was set up to 
finance the development of a national repository, currently has 
over $41 billion in its coffers which has been contributed by 
electricity consumers and nuclear generation companies. Each 
year over $1.5 billion more in interest accumulates in the 
fund. And finally, each day we don't have a solution, does cost 
taxpayers $2.2 million in damages, the single largest liability 
paid out of the judgment fund year after year. It's really time 
to solve this, and I'm excited to talk about how that can be 
achieved.
    We need a durable used fuel program. We must allow the 
science, not the politics, to guide us forward. But let me be 
clear, Congressional action is necessary and three important 
points must be addressed.
    First, we need to answer on the Yucca Mountain license 
application. DOE submitted the application to the NRC more than 
a decade ago, and Congress directed the NRC to issue a decision 
in 2012. This deadline, like too many, was missed because DOE, 
without basis, shut down the Yucca Mountain project. For the 
sake of the communities holding stranded used fuel wishing to 
redevelop their sites, we must move forward and allow Nevada's 
concerns with Yucca Mountain to be heard by NRC's independent 
administrative judges. This will allow a licensing decision to 
be determined based on its scientific merits rather than 
politics.
    Second, as a licensing process of Yucca Mountain moves 
forward, interim storage can play an important role in helping 
move spent fuel away from reactor sites. Moving interim storage 
in parallel with the Yucca Mountain project helps to alleviate 
state and local concerns that interim storage will become a de 
facto disposal facility. This point was highlighted recently in 
a letter by New Mexico Governor, Lujan Grisham. That said, I'm 
pleased interim storage is addressed in S. 1234, the Nuclear 
Waste Administration Act. I strongly believe interim storage 
can be successful if moved in parallel with the Yucca Mountain 
licensing.
    And finally, the nuclear industry and electricity consumers 
around the country have paid their fair share to address the 
back end of the fuel cycle. But S. 1234 was originally drafted 
prior to the court mandated prohibition on the fee, and I want 
to strongly convey the importance of not prematurely re-
imposing the nuclear waste fee, especially given the 
substantial balance and large investment interest which accrues 
annually.
    The industry believes that the fee should not be reinstated 
until (1) the annual expense for the program's ongoing projects 
exceed the annual investment and come on the fund, and (2) the 
projected life cycle cost demonstrates that the fee must be 
reinstated to achieve full cost recovery over the life of the 
program.
    The fact that we are here today considering this 
legislation is a positive step in the right direction, and I 
sincerely appreciate the Committee's motivation to find a 
durable solution.
    We look forward to continuing to work with each and every 
one of you to reach bipartisan consensus on the best approach 
for long-term management of the nation's used fuel.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Korsnick follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you.
    Mr. Norton, welcome.

    STATEMENT OF WAYNE NORTON, CHAIR, DECOMMISSIONING PLANT 
   COALITION STEERING COMMITTEE, AND PRESIDENT & CEO, YANKEE 
                    ATOMIC ELECTRIC COMPANY

    Mr. Norton. Good morning, Chairman Murkowski, Ranking 
Member Manchin and members of the Committee. My name is Wayne 
Norton. I'm the President and CEO of Yankee Atomic Electric 
Company with responsibility for Maine Yankee, Connecticut 
Yankee and Yankee Rowe nuclear facilities.
    The three nuclear plants at my sites are fully 
decommissioned but for the storage facilities for the spent 
fuel and graded and Class C waste produced during our operating 
life.
    Each company is undergoing litigation with the Department 
of Energy for monetary damages resulting from its partial 
breach of contract. To date, the courts have awarded my 
companies damages of approximately $575 million, claims that 
now encompass virtually all cost for the management of our 
companies and the fuel storage facilities.
    In addition, I serve as the Chair of the Decommissioning 
Plant Coalition (DPC) Steering Committee. And as such, I want 
to express our appreciation for this invitation to appear 
before you today on behalf of the Coalition and would ask that 
our full statement, excuse me, be read into the part of the 
record.
    We are here today, in part, because the failure of the 
Federal Government to make good on its commitment is creating a 
spent fuel management burden across the increased number of 
states and localities. This delay in performance by the 
government has created a situation whereby communities across 
the nation are becoming the unanticipated home for interim 
storage of spent nuclear fuel.
    In New England alone there are five sites in four states 
that are providing indefinite storage of this material, even 
though the electric ratepayers in that region have met their 
obligations and paid upward of $3 billion into the nuclear 
waste fund.
    Members of the Decommissioning Plant Coalition have adopted 
a formal position statement that emphasizes our support for an 
integrated nuclear waste program that provides for the timely 
and safe solution to removing this material from our sites. 
Many of these positions are captured in the recommendations of 
the Blue Ribbon Commission and in Senate 1234, the Nuclear 
Waste Administration Act.
    I'd like to focus on two issues relative to the Blue Ribbon 
Commission recommendations and Senate 1234. One, consolidate 
interim storage, and two, funding reform.
    As suggested by the Blue Ribbon Commission, Senate 1234 
calls for a consolidated interim storage program as part of an 
active repository siting and licensing effort. Given that 
Congress has not funded the current repository program for 
almost a decade, given the current federal and state tension 
relative to the repository program and given the future funding 
constraints and mounting taxpayer liabilities, we at the DPC 
also believe the most effective and timely path to remedy the 
government's default lies with such a program.
    We appreciate the fact that Senate 1234 does not prohibit 
the commencement of fuel movement to CIS facility prior to 
final action on the repository licensing application. Based on 
the most credible estimates for this licensing action, it seems 
clear that a consolidated interim storage facility license will 
likely be granted first and the explicit linkage between the 
two could unduly delay the anticipated title transfer and fuel 
acceptance, a key to reducing ongoing taxpayer liability.
    Title IV of Senate 1234 is a clear effort to correct our 
major policy concern relative to the sufficient and reliable 
funding of the program. The establishment of a new working 
capital fund is clear movement in a direction that the DPC 
supports. However, it does not fully resolve the continued risk 
of annual appropriations and, perhaps more importantly, it 
leaves unresolved, the matter of $40 billion already funded 
into the nuclear waste fund.
    In conclusion, along with many of our other national 
organizations which you'll hear from today, the DPC has 
repeatedly called for the need for urgent action by Congress to 
establish an integrated national nuclear waste program.
    Continued inaction is now costing American taxpayers, as 
you've heard today, approximately $2.2 million a day and the 
ratepayers of New England and this nation deserve to see the 
tens of billions of dollars, already collected, used for its 
intended purpose.
    Madam Chairman, Ranking Member Manchin and members of the 
Committee, the DPC deeply appreciates your interest in this 
issue. We are encouraged by your legislative initiative and the 
attention you have brought through the conduct of this hearing.
    Thank you for the opportunity to testify today. I'd be glad 
to answer any questions.
    [The prepared statement of Mr. Norton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you, Mr. Norton.
    Mr. Nesbit, welcome.

STATEMENT OF STEVEN P. NESBIT, CHAIR, NUCLEAR WASTE POLICY TASK 
        FORCE, ON BEHALF OF THE AMERICAN NUCLEAR SOCIETY

    Mr. Nesbit. Thank you, Chairwoman Murkowski, Ranking Member 
Manchin and members of the Committee. I appreciate the 
opportunity to testify on behalf of the American Nuclear 
Society (ANS). ANS represents 10,000 men and women who work 
every day to provide clean energy, detect and cure cancer 
through nuclear medicine, develop systems to power deep space 
exploration and enable the many other beneficial applications 
of the atom.
    We applaud the introduction of the Nuclear Waste 
Administration Act of 2019 as a serious effort to break the 
political log jam that prevents the effective management of 
nuclear waste in the U.S. To the detriment of the American 
people, the Federal Government is approaching a decade of 
inexcusable inaction in this critical area, an impending 
anniversary that should spur Congress and the Administration to 
action.
    To be clear, used nuclear fuel is being stored safely today 
and poses no immediate danger to the public; however, the lack 
of progress on a geologic repository has clearly endangered 
nuclear power's potential to address our long-term energy and 
environmental objectives.
    In particular, advanced reactor developers, men and women, 
who are earnestly striving to meet global demand for emissions-
free, reliable energy are most impacted by the question, what 
about the waste?
    I will turn now to discuss several key provisions of S. 
1234 along with other governmental actions that we believe can 
begin addressing that very fundamental question.
    We endorse the initiation of a search for a geologic 
repository site other than Yucca Mountain as required by 
Section 306 of the proposed legislation. Make no mistake about 
it, ANS strongly supports the timely completion of Yucca 
Mountain licensing; nevertheless, if Yucca Mountain doesn't 
become operational, our waste will have to go somewhere. 
Consolidated interim storage by itself is not the solution, and 
the country deserves a better understanding of what options are 
realistically available.
    To enable repository siting, the government needs to update 
several regulations to reflect scientific advances and lessons 
learned over the past decades. In particular, the nation's 
generic environmental standard for geologic repositories, 40 
CFR Part 191, lacks transparency, is out of date and is 
inconsistent with international guidelines.
    We endorse a consolidated interim storage program with 
priority for fuel at shut down plants as authorized by Section 
305. However, Congress should understand that success in this 
area is unlikely without a credible repository program.
    ANS supports a new independent entity to manage high level 
waste but has some concerns with a new government agency 
proposed entitled to the NWAA. We suggest continued 
consideration be given to the public corporation model.
    High level waste funding reform is essential. Title IV of 
the bill takes a step in the right direction by improving 
access to future contributions to the Nuclear Waste Fund. The 
Committee should also consider incorporating practical 
provisions to allow an empowered management entity to use the 
existing balance of the fund.
    The approach to consent-based siting of nuclear waste 
management facilities described in Sections 305 and 306 appear 
reasonable; however, it is an open question if a process with 
all parties having an absolute veto can succeed in our system 
of government. Additional information on these points and 
others is provided in my written testimony.
    In closing, ANS suggests three principles for future 
action. First, make real progress by focusing on achievable 
tasks. Create a viable management organization with the 
necessary resources that can work without undue political 
interference. Empower that organization to complete Yucca 
Mountain licensing, investigate a second repository site and 
move forward on consolidated interim storage. Initiate the 
development of up-to-date repository regulations for sites 
other than Yucca Mountain. Engage with Nevada and other 
potential host states and communities.
    Second, seek to combine the concepts of ``consent'' and 
``benefit.'' In addition to money from the Nuclear Waste Fund, 
the Federal Government has many means of providing 
infrastructure improvements, federal land, educational 
opportunities and other means of support to states and 
communities interested in exploring a partnership on the 
management of nuclear material. Make those potential benefits 
abundantly clear from the beginning.
    Third, empower our scientists and engineers. Congress must 
address the legal and administrative issues associated with 
nuclear waste. But we will not succeed if we allow politics to 
overwhelm good science. Act based on real risk, not perceived 
risk. We must give our best and brightest nuclear professionals 
the opportunity to take on this challenge with some degree of 
independence, funding and flexibility.
    I thank you again for the opportunity to testify and stand 
ready to answer your questions. I yield back the remainder of 
my time.
    [The prepared statement of Mr. Nesbit follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you, Mr. Nesbit. We appreciate that.
    Mr. Fettus, welcome.

   STATEMENT OF GEOFFREY H. FETTUS, SENIOR ATTORNEY, NATURAL 
                RESOURCES DEFENSE COUNCIL, INC.

    Mr. Fettus. Thank you, Chairman Murkowski and Ranking 
Member Manchin and members of the Committee. Thank you for the 
opportunity to present NRDC's views.
    Chairman Murkowski started the hearing perfectly when she 
said we're in the same place. We trust this can be a new 
beginning with more than 80,000 metric tons of spent fuel in 
more than half of our states and reactors moving to 
decommissioning, we need to reset the process. S. 1234 however, 
will not solve the current stalemate and won't lead toward 
workable solutions; therefore, we oppose it in its current 
form.
    For more than 50 years Congress has offered and even passed 
bills that would restart the Yucca licensing process or kick 
open a door in New Mexico or Utah for an interim storage site. 
In doing those things, S. 1234 severs any meaningful link 
between storage and disposal and excludes Nevada from the 
consent process it sets up. This won't work. And such efforts 
have failed in Tennessee, in Kansas, Nevada, Utah and 
everywhere else. Another such attempt restarts litigation and 
controversy and the likely result is the continued stalemate 
we've been in.
    Seven years ago, a bipartisan Blue Ribbon Commission keenly 
described why past attempts failed. That Commission wisely 
asserted we can't keep doing the same thing. Congress must 
create a process that allows any potential host state to 
demonstrate consent or, for that matter, non-consent.
    So rather than spend more of your valuable time on the 
specifics of why this won't work, they're all in the written 
testimony, I put before you a durable, meaningful, reset of how 
we can manage and dispose of nuclear waste and how we can 
really achieve consent. The solution could be summed up simply. 
Give EPA and the states power under well-established 
environmental statutes so that they can set the terms for how 
much and on what conditions they could host a disposal site.
    Radioactive waste is stranded at sites across the country 
and will remain so because the Atomic Energy Act treats 
radioactive waste as a privilege pollutant. The Act preempts 
the regulatory authority of EPA and the states, exempting 
radioactivity from hazardous waste law and sizable portions of 
the Clean Water Act. It ignores the vital role states play in 
addressing other environmental pollutants.
    Senator Manchin talked of a mechanism that can drive buy-
in. Our government is at its strongest when each player's role 
is respected. As an example, the years of wrangling over what 
standards should be set for cleanup at our massively 
contaminated nuclear weapon sites, such as those in Washington 
or South Carolina, is made exponentially worse by DOE's self-
regulatory status which the Atomic Energy Act ordains with 
these exemptions.
    The same is true with commercial spent fuel where any state 
that is targeted to receive nuclear waste looks to be on the 
hook for the entire burden of the nation's spent fuel. State 
consent and public acceptance of potential repository sites 
will never be willingly granted unless and until power on how, 
when and where waste is disposed of is shared rather than 
decided simply by federal fiat.
    There's only one way consent can happen consistent with our 
cooperative federalism. Specifically, Congress can finally 
remove the Atomic Energy Act's anachronistic exemptions from 
our bedrock environmental laws. Our hazardous waste and clean 
water laws must include full authority over radioactivity and 
nuclear waste facilities so that EPA and, most importantly, the 
states can assert direct regulatory authority.
    Removing these exemptions will not magically solve this 
puzzle and create a final repository, but I think it can work 
faster than what we have now because it will open a path 
forward that respects each state rather than offering up the 
latest one for sacrifice. The Texas and New Mexico events of 
the last several weeks demonstrate this.
    Why will NRDC's plan work and why does this provide a 
better chance than S. 1234? Because a state can say no. It can 
also say, yes. And it can set the terms for how it will receive 
the waste and, importantly, not be on the hook for the entire 
burden because a state can protect its citizens and 
environment, limit what comes into the state. Such a new regime 
would allow for the thorough technical review on the ability of 
any site to meet strict, protective standards unlike the years 
of fighting that have been the hallmark of this process. And 
just as important, that fundamental sharing of power can result 
in public acceptance of solutions.
    We've seen these bills before. Each has been a mirror of 
the last. It's time to try something that has a proven track 
record of addressing other controversial topics.
    If you want to garner the consent the Blue Ribbon 
Commission deemed necessary, you have to give EPA and the 
states regulatory authority under environmental law. It's time 
to regulate nuclear waste the same way as every other pollutant 
with EPA and delegated states taking the lead under our 
foundational environmental statutes.
    Thank you again for having me here today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Fettus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you, Mr. Fettus.
    Let's go to views from the Idaho National Lab. Dr. Wagner.

 STATEMENT OF DR. JOHN WAGNER, ASSOCIATE LABORATORY DIRECTOR, 
  NUCLEAR SCIENCE AND TECHNOLOGY DIRECTORATE, IDAHO NATIONAL 
                           LABORATORY

    Dr. Wagner. Chairman Murkowski, Ranking Member Manchin and 
members of the Committee, it's an honor to be here with you 
today.
    I want to particularly thank Senators Murkowski, Feinstein 
and Alexander for sponsoring the significant legislation and 
their persistent efforts to make progress on this critically 
important issue for the nation, in general, and for nuclear 
energy, in particular.
    Currently, I oversee INL's Nuclear Energy Research, 
Development and Demonstration efforts, including R&D related to 
spent nuclear fuel storage, transportation and disposal. 
Throughout my career, I've been intimately involved in the 
technical issues around spent nuclear fuel storage, 
transportation and disposal working in the private sector as 
well as for the Nuclear Regulatory Commission, supporting the 
Nuclear Regulatory Commission and the Department of Energy on 
these issues, including leading a DOE program to implement the 
Blue Ribbon Commission on America's nuclear future recommended 
near-term actions which involved laying the groundwork for 
implementing interim storage as well as the associated 
transportation to support that.
    As the nation's nuclear energy research development and 
demonstration laboratory, INL is the leader in the effort to 
maintain and expand the lives of America's nuclear reactor 
fleet. These safe, efficient and high performing systems 
produce nearly 20 percent of the nation's electricity and more 
than half of our carbon-free electricity. That's more than 
solar, wind, hydro and geothermal combined.
    At INL we also work with industry on innovative advanced 
reactor designs. This includes megawatt scale microreactors, 
small modular reactors and a variety of advanced designs that 
offer the potential for improved performance, greater inherent 
safety features and approved applicability for certain market 
applications as well as reduced construction, licensing and 
operating costs.
    As this Committee heard on April 30th, during a discussion 
on the Nuclear Energy Leadership Act, or NELA, a strong and 
vibrant commercial nuclear industry is vital to the United 
States environment, power grid reliability and security, 
economy and national security. Accordingly, we must address 
some major impediments to developing and deploying advanced 
nuclear reactors.
    Congress, to its credit, has begun this process by passing 
two important pieces of legislation, the Nuclear Energy 
Innovation Capabilities Act, or NEICA, and the Nuclear Energy 
Innovation and Modernization Act, NEIMA, and reintroduced a 
third which I referred to earlier, NELA. Now it's time to 
address the waste issue, an impediment to development of the 
new advanced reactors as well as continued operation of the 
existing plant in some cases.
    First and foremost, I want to be clear from a technical 
standpoint. Spent nuclear fuel storage and transportation is 
safe as evidenced by more than 50 years of safe and secure 
operations by the public and private sectors. We do not have a 
spent nuclear fuel safety crisis in this country.
    We do, however, have issues caused by the lack of a 
sustained, coherent approach for nuclear waste and not having a 
final disposition solution. This has resulted in longer than 
anticipated storage, as you all know. The national laboratories 
and industry, in coordination with the Nuclear Regulatory 
Commission, are proactively identifying and addressing the 
associated potential technical issues with this situation.
    More worrisome though than the relatively minor technical 
risk of extended storage are the socio-economic and community 
impacts resulting from onsite storage at permanently shut down 
reactor sites. The cost, which has been referred to multiple 
times this morning already, of approximately $2.2 million per 
day for taxpayers which will only increase until the government 
begins to take possession of the spent fuel and will also 
increase as additional existing plants are shut down.
    And then finally, the negative impact on public acceptance 
of new nuclear energy which was also referred to earlier, given 
the lack of progress to address the waste. In our mission at 
the Idaho National Laboratory related to research, development 
and demonstration and ultimate deployment of advanced reactor 
systems, we frequently encounter this issue of how in the world 
can we talk about new nuclear reactors when we have not 
addressed the waste issue? Because of all this, an interim 
storage facility can be viewed as an economic investment for 
the nation that addresses these issues and provides a range of 
other benefits that have been identified in numerous studies, 
including the BRC report that I referred to earlier.
    Finally, I'd like to note that I'm encouraged that Senate 
bill 1234 identifies defense-related spent fuel under a 
compliance agreement, as a priority at the discretion of the 
new administrator. The Department of Energy at the INL site is 
responsible for managing and storing a range of spent fuel, 
including defense-related spent fuel. This bill would enable a 
meaningful storage alternative for those materials.
    I appreciate the opportunity to testify. I want to thank 
you again for your attention to this important issue for our 
nation, and I look forward to answering any of your questions.
    [The prepared statement of Dr. Wagner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    The Chairman. Thank you, Dr. Wagner, and thank each of you 
for being here this morning and for what you are providing the 
Committee.
    It is clear that the reviews, the studies, everybody agrees 
we have to deal with the permanent in order to get to interim. 
The discussion about interim sites becoming de facto permanent, 
that is kind of where we are, unfortunately, around the country 
which I don't think any of us believe is truly acceptable for 
the long-term.
    We are not the only nation that has nuclear waste to deal 
with. It is not like this is a case of first impression here. 
There has been reference, plenty of reference, to other nations 
and how they handle their nuclear waste. Finland and Sweden are 
held out as good examples of areas where they have deep 
geologic repository siting. They have a consent-based approach.
    Mr. Nesbit, you mentioned in your recommendations to us 
that there has to be consent and benefit tied together. What 
have they been able to do successfully that we should be 
looking to? Are their geologic formations different than ours 
and that is what gives them the leg up? Is it more that they do 
with the consent-based? I am trying to figure out by looking to 
others who have been more successful than we have, what we 
might learn. And I throw that out to anybody here on the panel.
    Mr. Nesbit, and then we will go to Mr. Fettus.
    Mr. Nesbit. Well, first of all, it's not the geology. The 
United States is blessed with a vast number of different 
geologic media which are all suitable for repository 
development. They have advantages, they have disadvantages, but 
in a way it may be a problem that we have so many options 
available to us. In other countries they're smaller and they 
really just have to concentrate on one option.
    The other thing I'd like to point out is that in those 
countries that have been successful so far in what you would 
call a consent-based siting process, they do not have anything 
that corresponds to the state government in the United States 
and that's just the nature of their governmental structure, 
Sweden and Finland. It has been a challenge in the United 
States siting waste facilities and typically the hang-up is at 
the state level.
    The Chairman. Your thoughts, Mr. Fettus?
    Mr. Fettus. I would actually agree with a lot of what Mr. 
Nesbit just said, so I hope the Committee notes that. That one, 
we call for in my written testimony, a return to the USGS had 
started some superb work at looking at the vast, over 36 states 
and dozens and dozens of places around the country that have 
potential.
    But I would urge the Committee to reflect on the fact that, 
number one, there is no country that has fully sited a deep 
geologic repository for spent nuclear fuel and high-level 
waste, yet. Sweden and Finland are farther down the road, but 
for, in great measure, precisely the reason that Mr. Nesbit 
just pointed out which is they don't have the tripartite system 
we do of both a community, a state and the Federal Government. 
They don't have that interlocutory layer.
    And if you want to solve it consistent with our 
environmental laws, we've always taken accord of the states. 
And so, that's the basis of my testimony.
    The Chairman. I appreciate that.
    Let me ask you, Mr. Norton, what does it cost to maintain a 
decommissioned plant that still has used fuel on its site on 
average, just give me a range?
    Mr. Norton. Thank you for the question, Senator.
    At my sites, as you'll see in my written testimony, it's 
approximately $30 million a year combined between the three 
sites to maintain those facilities and the corporate structure 
associated with it.
    The Chairman. What is happening on the site right now? I 
mean, in terms of you have workers there that are just ensuring 
that there is a level of safety. What is costing you $30 
million?
    Mr. Norton. Well, the interesting part about our companies, 
Senator, is that, Madam Chairman, is that we're also managing 
our corporations and not just the storage of the spent fuel at 
our sites. I think if you just looked at spent fuel storage, 
the cost would be closer to $6.5 million per site. But as the 
courts have found in our cases, our corporation single asset 
utilities would have gone out of business had the government 
performed.
    The Chairman. Right.
    Mr. Norton. So not only is our damages including the cost 
of safely and securely storing the fuel, but also to manage our 
corporations and remain in existence until such time as the 
government performs.
    The Chairman. But about $6.5 million per site, on average.
    Mr. Norton. Yeah, on average.
    The Chairman. In order to transport spent fuel canisters, 
do you anticipate that upgrades will be required to these sites 
as you look forward?
    Mr. Norton. Well, I would expect across the nation, Madam 
Chairman, that there would be upgrades required. And depending 
on the facility, would depend on the significance of that.
    For instance, the Department of Energy has been doing 
studies, pre-planning studies, for de-inventorying these sites 
and looked at the transportation challenges, independent to 
many of these sites, including the shutdown ones and including 
my three. And in each of these sites is unique in those 
challenges. And so, for instance, at Maine Yankee, there would 
be minimal upgrades required at the site itself. The inventory 
reports have looked more broadly at the entire transportation 
route. And I realize that the Department of Energy and others 
have focused on that issue and should continue to focus on that 
issue. But, you know, the entire transportation pathway needs 
to be analyzed.
    So, I think it's site specific, but I am certain that 
almost every site in the nation would have to have some level 
of upgrade to start removing this material from their sites.
    The Chairman. I think it is important for us to understand 
that.
    Let me turn to Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    I think finding a solution to our nation's nuclear waste 
impasse is critically important, and I think you all have 
brought so much expertise to the table. I appreciate it very 
much.
    Instead of asking a question right now at the beginning of 
my time, I am going to ask Senator Cortez Masto, since she has 
been leading this effort and has more skin in the game than any 
of us sitting here, I would like for her to explain a little 
bit what she is trying to achieve right now and how we can be 
of help.
    Senator Cortez Masto. Thank you. Thank you, Ranking Member 
Manchin for this opportunity. I know it is rare.
    Chairman Murkowski, let me just say the recommendations 
provided by the Blue Ribbon Commission, I believe, do provide 
us a blueprint to follow, particularly when employing a 
consent-based method for site selection.
    My state and what I am simply asking is that the State of 
Nevada be included in this framework of this legislation to be 
treated equally and fairly alongside all the other states. That 
is all we are asking. And I would like to ask you and Ranking 
Member Manchin to work with me as this bill proceeds.
    Senator Manchin. You have my assurance on that and all of 
you all, I think, have basically expressed in your opening 
statements that the site selection has to have a buy-in to 
where states can either say yea or nay and I think that is 
important. But we have to move forward.
    Mr. Norton, if I can, I want to make, go back on Senator 
Murkowski. I want to understand the economics of what we are 
dealing with. Do you all get paid by the Federal Government for 
storage onsite since it never did take the responsibility as 
far as putting it in a repository?
    Mr. Norton. Well, Senator, to be more clear, we have to sue 
to get that money.
    Senator Manchin. You have to sue to get the money.
    Mr. Norton. Every five years we sue the Federal Government 
for the previous four years of storage costs, go through the 
process.
    Senator Manchin. Okay, storage costs. You just said you are 
suing and received $30 million when your actual cost is $6.5 
million.
    Mr. Norton. I'm sorry, again Senator, I might have confused 
you. I was trying to be clear. I think the differentiation of 
the----
    Senator Manchin. Yes, the $23.5 million.
    Mr. Norton. The difference between the actual cost to 
safely and securely store it versus the cost that we have to 
incur at the full cost. So we have, I'm sorry.
    Senator Manchin. The cost you are incurring right now, you 
are incurring that cost by keeping onsite?
    Mr. Norton. Yeah, we have an onsite storage component to 
our litigation and----
    Senator Manchin. Is it safe? Do you feel it is safe?
    Mr. Norton. It is safe, yes.
    Senator Manchin. And I would assume since it is safe and 
you are able to do it and we have had no incidents there, then 
there is no urgency and maybe Congress has dragged its feet for 
30 years for that reason. It hasn't become a critical mass.
    Dr. Wagner, you might want to talk on that, would all 
consider it has been safe storage? I mean, what the 
corporations are doing?
    Dr. Wagner. Yes, your point is exactly right. It has 
continued to be safely stored, securely stored. And so----
    Senator Manchin. The public is not threatened?
    Dr. Wagner. Exactly right.
    So that's kind of a bit of a crux of the problem. We don't 
have a crisis, per se, in terms of safety or security as the 
utility and the private sector has done, you know, an 
outstanding job in terms of safety and security----
    Senator Manchin. I am told, I guess, that some of these 
plants, I mean we have plants coming offline and we are talking 
about in climate change and we are talking about decarbonizing. 
And Bill Gates raised the bar very high in saying, you know, 
you think it is bad now, wait for another five or ten years, 
they are going to, we are going to zero. We are not going to 
more nuclear decarbonization energy. We are going to less.
    So is it because you are running out of room? You have no 
place to store it? Your capacity?
    Mr. Fettus. No, Senator, it's not because they're running 
out of room.
    Dry storage can be improved, and we have a whole set of 
suggestions on hardened onsite storage that we think would work 
better while we get a repository program on track along the 
lines of what the BRC suggested and NRC's suggestion.
    And I would urge you, I think it's a long footnote three, 
your staff can review in our testimony. The actual waste issue, 
honestly, Senator, has not and is not what is holding up 
nuclear power's ability to compete in the market.
    What is holding up nuclear power's ability to compete in 
the market are its gigantic upfront capital costs. The South 
Carolina reactors that are now in a $9 billion hole in the 
ground at Summer and Vogtle, I think, is now pushing $28 
billion for two new units. The likelihood of building new 
nuclear power is vanishingly unlikely in this country for a 
while.
    Senator Manchin. Let me ask this question then.
    The existing nuclear power we have in decommissioned units 
that have gone offline, could they have been restored? Could 
they have been basically improved upon?
    I'm----
    Mr. Fettus. It depends on how they went offline.
    Ms. Korsnick. The plants that are in the marketplace right 
now, the merchant plants that you're talking about, they're not 
shutting down relative to used fuel. Used fuel is a necessary 
issue that we need to address.
    Senator Manchin. Sure.
    Ms. Korsnick. And as----
    Senator Manchin. Why are they shutting down? Cost?
    Ms. Korsnick. It leads to building more nuclear plants and 
people's concerns about creating additional waste when the 
current waste is not being cared for.
    Senator Manchin. No, I think my question is, is that we are 
decommissioning some nuclear plants.
    Ms. Korsnick. That's correct.
    Senator Manchin. Are they, have they run their life cycle?
    Ms. Korsnick. Not all of them, no.
    Senator Manchin. Could they be----
    Ms. Korsnick. They're being shut down because in the 
marketplace right now, the marketplace does not recognize the 
carbon-free attribute of nuclear. It's competing with----
    Senator Manchin. So there is no value to carbon-free 
nuclear, is what you are saying?
    Ms. Korsnick. Not in the marketplace there's not. There 
should be and that would help.
    Senator Manchin. Are any of these plants in basically 
controlled PSCs or basically they are all merchant?
    Ms. Korsnick. The ones that are shutting down, for the most 
part, are merchant, not all, but for the most part.
    Senator Manchin. And I think we have gone to the DOE asking 
for some stability in that.
    Ms. Korsnick. That's correct.
    Senator Manchin. Right? And that would be of utmost 
importance to save some of these plants from going offline.
    Ms. Korsnick. It would be very helpful.
    Senator Manchin. Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Before I turn to Senator Alexander, I wanted to respond to 
Senator Cortez Masto, because you asked a very direct question 
of me.
    Know that I do understand the importance of this issue to 
you, your delegation and to your constituency and I want to be 
very clear that I am very open to working on this bill with 
you, with Senator Manchin, and any other Senators that are 
interested in working on it.
    Senator Alexander, Senator Feinstein and I introduced this 
bill understanding that changes are going to be needed to bring 
it in line with current policies. I am aware of the language 
that you have offered along with Senator Rosen and Senator 
Manchin and that you believe it could improve the bill. Know 
that I look forward to discussing this language with you as we 
are moving forward, because I think we all want to find that 
practical path forward. So I look forward to that.
    Let me turn to Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman, and thanks to 
the witnesses.
    Let me see if I can get down to what I think the crux of 
the problem is. We have a world concerned about climate change 
and the effect of carbon emissions on climate change and 60 
percent of the U.S. electricity that is carbon-free is nuclear 
power, and 11 nuclear plants are closing by 2025 and most of 
them will close over the next several years for a variety of 
reasons and one of the reasons is we have nowhere to put the 
waste, no place to put the waste offsite which the nuclear law 
requires we do.
    As a result of that, President Obama had a Blue Ribbon 
Commission that came up with several ways to move ahead 
including a new Yucca Mountain, in effect, a new permanent 
repository, new interim storage and there are a couple of 
private interim storage sites.
    So there are four places to put this waste that we are 
talking about, waste that we have collected $40 billion from 
ratepayers to store and that we are paying $2.5 million a day 
in damages because we are not doing what the law says we are 
supposed to do. We have four tracks we could follow to do 
something: We could have a Yucca Mountain open, we could build 
a new Yucca Mountain, we could have a public interim site, or 
we could approve a private interim site.
    Now, the reason we don't have any of those is because some 
people have said that if you can't do Yucca Mountain, you can't 
do anything else.
    So I am going to ask each one of you, do you agree with 
that?
    Ms. Korsnick, do you agree that if we can't agree in the 
Congress to proceed ahead with Yucca Mountain, that we should 
stop trying to build a new Yucca Mountain, consent-based, a new 
public interim site, consent-based, or approving a new private 
site?
    Ms. Korsnick. We need a long-term storage answer as well as 
a short-term.
    Senator Alexander. No, that's not my--my question is if we 
can't do Yucca Mountain should we stop doing anything else? 
Should we stop trying anything else?
    Ms. Korsnick. I think we've spent an awful lot of money on 
Yucca, and I think it should move forward with----
    Senator Alexander. That is not my question. My question is 
if we can't do Yucca Mountain, which we have not been able to 
do for 35 years, should we stop doing all the other things that 
this legislation and the Blue Ribbon Commission said we could 
do?
    Ms. Korsnick. No, we should move forward.
    Senator Alexander. We should move forward.
    Mr. Nesbit? Or let me just go down the line. If we can't do 
Yucca Mountain, should we stop trying any of these other 
tracks?
    Mr. Norton. Senator, we should not.
    Mr. Nesbit. I agree, Senator. I also think the country 
should get a return on the $15 billion.
    Senator Alexander. My question is should we stop if we 
can't do Yucca Mountain? Should we stop trying any other 
solution?
    Mr. Nesbit. No, sir, we should not stop trying. But we 
should complete the licensing.
    Mr. Fettus. I agree, we should keep trying and we laid out 
a pathway in our testimony for you, Senator.
    Senator Alexander. Yes.
    Dr. Wagner. No, sir.
    Senator Alexander. Well, I mean, that is the issue in the 
appropriations process. I believe we should finish Yucca 
Mountain but what happens is the Senate won't agree to fund the 
next year's funding of Yucca Mountain which is only to 
determine whether it is safe or not. And so, the House won't 
agree to move ahead with a new repository, a new public site, a 
new private interim site. That does not make any sense at all. 
I mean, we ought to try all four tracks. That is what the Blue 
Ribbon Commission said.
    Let me go to the private site. I think the private site is 
the site that is most likely to be open first, even if we were 
to move ahead with Yucca Mountain.
    Ms. Korsnick, the language of the bill that is proposed has 
language that was written for Yucca Mountain which says, ``This 
Act shall not affect any proceeding or any application for any 
license or permit pending before the Commission on the date of 
enactment of this Act.'' That basically said we are 
sidestepping Yucca Mountain. We are moving ahead with these 
permanent repository and public interim sites. But today, that 
might affect the two pending private sites.
    Would it be your opinion that the bill, as written, would 
mean that the provisions of the bill, including the consent-
based procedures, would not apply to the pending applications 
from New Mexico and Texas for a private site?
    Ms. Korsnick. That's how we read it, that they're already 
pending applications so they would be excluded.
    Senator Alexander. Anyone else have an opinion on that?
    Mr. Fettus. That's precisely right, Senator. You asked the 
right question. Texas and New Mexico would both be barred from 
the consent process, clearly, by the terms of the bill.
    Senator Alexander. I would assume from your testimony you 
think they should be?
    Mr. Fettus. We think that would put us in precisely the 
same stalemate that's put us here for 50 years.
    Senator Alexander. Ms. Korsnick, in your testimony you 
thought the private sites, because of the promise they have, 
ought to have priority, is that correct?
    Ms. Korsnick. We do think they should have priority.
    The challenge with the private sites right now is they 
don't want to be the de facto, long-term storage which keeps it 
connected to a long-term storage answer.
    Senator Alexander. Well, my own view, Madam Chairman and 
Mr. Ranking Member, is that the private sites are our best 
option, our fastest option. They should have priority and we 
should consider whether the consent-based provisions which, 
apparently, do not now apply to them, should and if they do, 
whether that would slow down the private sites which hold so 
much promise.
    Thank you for your time.
    The Chairman. Thank you, Senator Alexander.
    I truly appreciate your commitment to working and pushing 
all of us toward solutions here.
    Senator Heinrich.
    Senator Heinrich. Ms. Korsnick, you mentioned that the 
market right now just does not value carbon-free nuclear power.
    Has NEI endorsed putting a price on carbon as a way to 
build that value into the market?
    Ms. Korsnick. Yes, we've had discussions about a variety of 
ways to value nuclear in the marketplace. In the states, for 
example, there are zero emission credits that have been 
discussed.
    Senator Heinrich. Right.
    Ms. Korsnick. And we have supported that in New York and 
Illinois.
    Senator Heinrich. But have you endorsed putting a price on 
carbon as a way to pull that in?
    Ms. Korsnick. Those zero emission credits actually do, 
place it----
    Senator Heinrich. As a federal--at the federal level, 
nationally.
    Ms. Korsnick. We have conversations around that.
    Senator Heinrich. You have had conversations, but you have 
not actually taken a position on that?
    Ms. Korsnick. From a member perspective there's different 
views about whether or not a price on carbon would go forward.
    Senator Heinrich. No, I get that. I am just asking what 
your position is as an organization. Has NEI endorsed putting a 
price on carbon at the federal level?
    Ms. Korsnick. Not an explicit tax on carbon.
    Senator Heinrich. Okay.
    Ms. Korsnick. Value on carbon, yes.
    Senator Heinrich. Okay. It is not a complicated question.
    Why shouldn't the pending sites be part of the consent-
based approach when we know that not using a consent-based 
process which, by the way, the Blue Ribbon Commission was 
adamant about, has been a path to failure over and over again 
as we see in Nevada.
    Ms. Korsnick. Is your question around Nevada specifically?
    Senator Heinrich. No, I am asking why shouldn't pending 
applications also be part of a consent-based approach?
    Ms. Korsnick. It was simply reflecting that as written, 
since it says it's a pending application, that needs to be 
evaluated because they are----
    Senator Heinrich. Yes, so I am not asking about the 
legislation. I am asking should we use a consent-based process 
for all applications?
    Ms. Korsnick. Yes, we're in support of consent-based 
process for applications.
    Senator Heinrich. So, Madam Chair, I guess I am a little 
frustrated because we have been doing the same thing over and 
over for a long time and not getting somewhere. And I am 
actually, you know, I have spent enough time at a nuclear 
reactor when I was getting my engineering degree that I am 
actually quite proud of the work that I did in one of the 
larger research reactors in the country.
    But I think we have heard local input, state input, consent 
called just the politics. And I don't think, I think that is a 
mistake because the problem is, we have ignored the politics 
for decades.
    And so, one of the things that is very concerning to me is 
that if we move forward on interim sites, especially if it is 
without consent, and you have a consolidated storage facility 
that is filled with waste and we never build the permanent 
site, what recourse is the state going to have if a permanent 
disposal facility is never built?
    I think we owe it to this conversation to answer those 
questions before we expect somebody to take possession in what 
would be a permanent, you know, what could effectively be a 
permanent situation.
    I want to enter a couple of letters into the record. I have 
a letter here from Governor Lujan Grisham from New Mexico, and 
I have a letter from the State Land Commission of New Mexico, 
both objecting to interim storage. I would just ask consent 
that they be included in the record for the hearing.
    The Chairman. They will be included as part of the record.
    [Letters objecting to interim storage follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Senator Heinrich. Mr. Fettus, what should consent look 
like?
    Mr. Fettus. Consent should look like regulatory authority, 
as simple as that.
    To the extent that there has been acceptance in New Mexico 
of WIPP.
    Senator Heinrich. Right.
    Mr. Fettus. Transuranic geologic repository, the only 
operating one in the world.
    Senator Heinrich. Why do we have that? Why do we have 
consent privileges?
    Mr. Fettus. The only consent, well, it's a little 
complicated and it's not nearly the consent that needs to be 
there and it's not the full regulatory authority but the state 
has----
    Senator Heinrich. But the state has----
    Mr. Fettus. ----hazardous waste permitting authority and 
the state can shut the place down and set terms by which it can 
operate after it had a fire and an explosion that shut it down 
and contaminated it for several years.
    Senator Heinrich. And we reopened that facility which, I 
will repeat, is the only, only, deep geological repository that 
has been successfully built that I am aware of in this country 
because of the state's involvement. And so, I think we need to 
look at that model and look at what you suggested in terms of a 
different regulatory approach if we are going to get out of 
doing the same thing and expecting a different outcome.
    Mr. Nesbit. Senator, if I could interject.
    I'd just like to point out that I don't agree with Mr. 
Fettus' intertwining the concept of regulatory authority with 
consent. I think you can have consent.
    Senator Heinrich. But I do.
    Mr. Nesbit. Okay, fair enough.
    But I think that the regulatory authority that's present in 
the United States is--can be handled in a separate manner. I 
think that consent goes back to contracts.
    And if you look at the history of the nuclear waste matter, 
it is only because the generators of nuclear waste entered into 
a contract with the Federal Government that was a two-way 
contract, you pay money and you get something back, the waste 
removed from your site. That if it wasn't for that contract, 
then we would be an even a worse situation than we are today.
    The Chairman. Senator Heinrich, I just want to reiterate 
what I mentioned to Senator Cortez Masto. When we introduced 
this legislation, we did so knowing that we were laying down a 
marker for conversation because, quite honestly, we need to 
restart this.
    I appreciate the points that you have raised and they will 
be part of this ongoing discussion here. I want to make sure 
that colleagues know and understand, I don't view this bill as 
the end-all, be-all, but we have to start or restart at some 
point. So I thank you for that.
    Let's go to Senator Lee.
    Senator Lee. Thank you very much, Madam Chair.
    The traditional forms of nuclear energy generated a whole 
lot more waste than many of the methods that we are talking 
about at today's hearing. The sheer volume currently in interim 
storage around the country and also the lack of a permanent 
storage or permanent disposal solution are things that are 
frequently cited as reasons why we should not continue to 
develop our nation's nuclear energy capabilities.
    Ms. Korsnick, I have a question for you.
    Dr. Wagner mentioned several small reactors. How much more 
efficiently would these small reactors use fuel than reactors 
in past decades? And could you describe how these new forms of 
generating nuclear energy could possibly change our need for 
nuclear waste storage going forward?
    Ms. Korsnick. Yeah, so, I guess as you look forward, 
there's a variety of different types of small modular reactors 
that can be built, but some of the types of small modular 
reactors that can be built would actually be interested in 
using a different type of fuel. And some of that fuel could be, 
in fact, what we consider used fuel today. So in any solution 
set that we put in, we should remind ourselves that we want it 
to be retrievable. There's 95 percent still good energy in what 
we call used fuel. It's just in a different form. And some of 
these reactors that are being looked at for tomorrow will be 
able to harvest that energy.
    Senator Lee. And we will be able to use it far below that 
95 percent threshold that you described.
    Ms. Korsnick. That's correct.
    Senator Lee. How low would they go?
    Ms. Korsnick. They should be able to use the majority of 
that good energy. I would say, you know, you'll be down to 
maybe the four to five percent ``that's left'' that would then 
need to be stored.
    Senator Lee. Okay.
    And that brings up another topic. I don't know whether that 
plays into what happens then. Could it be reprocessed or 
recycled? Is there another means of dealing with our need to 
have a disposal site for spent fuel that could be addressed 
through recycling or reprocessing?
    It is my understanding that other countries that have 
relied on nuclear energy recycle their waste and that the U.S. 
has even developed the technology to do so here in the United 
States in a way that is deemed safe and clean.
    Can you describe the process of how nuclear fuel is 
recycled and the history of why this process has been banned in 
the United States?
    Ms. Korsnick. Sure, so it, sort of, goes back to when we 
said there's a 95 percent still good energy in what we call 
used fuel. It's transformed. And so, instead of being, say 
uranium 235, it's turned into uranium 238 or it's turned into 
plutonium 239. So those isotopes can still release energy but 
they, not in the current way in our current light water 
reactors.
    So in recycling what you do is you essentially take the 
fuel apart and you isolate what's good and can be used again. 
So that uranium, that plutonium, and it can then be mixed and 
you can use it in current reactors, that's called MOX fuel, or 
you can use it for other types of reactors. So again, it, sort 
of, closes the fuel cycle, if you will.
    You're left with a very small amount that is not useful in 
a fuel and France, as an example, reprocesses their fuel. They 
turn that into a glass and then you store that inert glass.
    Senator Lee. So the glass is inert?
    Ms. Korsnick. That's correct.
    Senator Lee. It is not fissile at that moment, it is not 
emitting----
    Ms. Korsnick. It's radioactive, but it's not useful for 
fuel.
    Senator Lee. Okay.
    Ms. Korsnick. So it's stored in accordance with--it would 
be in a deep geologic situation, but it would be a very small 
amount.
    Senator Lee. So it reduces the overall volume of what is 
produced?
    Ms. Korsnick. That's correct. That's correct.
    Senator Lee. So why wouldn't we do that?
    Ms. Korsnick. So in the United States, we've chosen not to. 
We've chosen the fact that, and this was made in the Carter 
Administration days, that the fact of reprocessing, they look 
at it as potential proliferation, even though there are many 
processes and things you could put in place to ensure that it's 
done without any kind of proliferation concerns. But that's why 
the United States doesn't currently go for reprocessing today.
    Senator Lee. So if that decision was made in the Carter 
Administration, we are talking about 40 years ago or more.
    Ms. Korsnick. That's correct.
    Senator Lee. What has changed since then that might cause 
us to need to reconsider that? Has the technology changed in 
such a way that what was perceived as dangerous would no 
longer, necessarily, be deemed dangerous?
    Ms. Korsnick. Well, I mean, I think we've proven on a lot 
of fronts that we have the capability of managing significant 
things. The government manages plutonium on a regular basis, so 
it obviously can be done and can be done safely.
    Senator Lee. Thank you. Thank you very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    First, I would like to enter into the record an analysis of 
this bill made by the Nevada Agency for Nuclear Projects and a 
statement expressing concerns of this bill by my Nevada 
colleague, Senator Jacky Rosen.
    The Chairman. Those will be included as part of the record.
    [Analysis and Rosen statement follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Senator Cortez Masto. Thank you.
    I am sorry Senator Alexander had to leave. I do agree with 
him. I think we need a comprehensive approach here. I think we 
need to--it is safely stored what I am hearing now, spent 
nuclear fuel, and it is safely stored where it is. But we do 
need a comprehensive approach for the future.
    But here is the one thing that I am seeking and this is why 
I so respect Senator Alexander. In 1987, I believe it was, 
Tennessee was able to successfully remove the Oak Ridge 
facility as an interim storage facility, change the law, and 
now in this bill Tennessee has equally the opportunity to say 
no like every other state, except Nevada. That is all I am 
looking for, in my state, are those similar opportunities, 
particularly with this bill it creates an equal consent-based 
siting process for all states, except for Nevada.
    And let me just highlight for the record, Section 306(e) 
requires the potential host state to veto or approve a site 
before they are fully informed of a site's local impact prior 
to initiating a review licensing process. That essentially 
leaves Yucca Mountain as the default sole repository. Section 
506(a) gives parity to all other states, except for Yucca 
Mountain in Nevada, which the consent-based process would not 
be applied to, but would be applied to states such as New 
Mexico, Texas and Utah to be kept on the list without requiring 
their consent. And Section 509 eliminates the legal 70,000 
metric ton limit of waste to be stored at a repository so if no 
state wants to be a host, this guarantees all the waste goes to 
Yucca Mountain.
    My request is that we all be treated equally. I so 
appreciate, again, the conversation today. That is why Jacky 
Rosen and I have submitted these recommended amendments to the 
Committee to this bill that treats Nevada equally.
    Let me start with some of the questions and comments that I 
have heard today.
    First of all, Mr. Fettus, let me ask you this. If we are to 
move forward in a comprehensive approach, and I think we have 
all agreed that we do need that approach, what is the best way 
to rebuild the American people's confidence in the Federal 
Government's ability to provide safe, long-term storage of 
high-level nuclear waste?
    Mr. Fettus. I think you've targeted the right issue, 
Senator, and that is confidence. And I'd also put it as trust. 
And we certainly support your idea of getting everybody treated 
equally under the consent.
    We would take it a step farther in that if we just keep the 
current system of trying to keep it as consent, everyone will 
just say no because the entire burden is on. That's what we're 
trying to build, is a process where states and EPA can have 
trust and confidence and say yes in our process. And that's the 
specific point of our testimony.
    Senator Cortez Masto. Thank you.
    Ms. Korsnick, would NEI support the new Nuclear Waste 
Administration Act, as created in this bill, if the NWA walked 
away from the Yucca Mountain project and demonstrated that a 
new repository project could be done more efficiently and 
rapidly than Yucca Mountain? Yes or no?
    Ms. Korsnick. Well, I guess I would reflect to say that we 
believe that Nevada does have a say in the process by 
continuing with the conversations around Yucca.
    Senator Cortez Masto. That was not my question. My question 
was this. Under this Act, would the NEI support this Act if the 
NWA walked away from the Yucca Mountain project and 
demonstrated that a new repository project could be done more 
efficiently and rapidly than Yucca Mountain? Would you support 
that?
    Ms. Korsnick. I don't see how another process could be done 
more rapidly with all of the analysis that's already been done 
on Yucca. But if you found such a magic place, yes, we could 
be----
    Senator Cortez Masto. Well, DOE studies have shown that 
walking away from Yucca Mountain and starting over with a 
repository in salt or shale could save billions of dollars over 
the life of the facility.
    So, and this is the challenge I have had. We have had a 
stalemate over the last 32 years, and we have offered the 
opportunity to come in and work with us and find a solution for 
it. I think you have that today, but unfortunately what I see 
from the industry is the same old playbook and not willing to 
even admit there is an opportunity to move forward. There is 
not even a willingness to talk about the potential new 
technology that can be utilized to address the safe storage, 
and that is my concern.
    We need time now for everybody to come together and move 
forward on this issue.
    Ms. Korsnick. We're happy to have those conversations.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you, Senator.
    Senator Risch.
    Senator Risch. Well, Madam Chairman, thank you for holding 
this hearing today.
    You know, I joined this Committee 11 years ago and we were 
talking about this then. Unfortunately the discussion today 
does not sound a whole lot different than it did 11 years ago.
    The Chairman. That is going to change.
    Senator Risch. Okay, going to change, thank you, Madam 
Chairman and maybe your bill will get us there.
    First of all, let me say thank you for inviting Mr. Wagner 
here. He is really the appropriate person to have here, which I 
will address in a second.
    I am also sorry that Senator Alexander left, because I was 
going to say he is the smartest guy on the panel. He left 
Tennessee and moved to Idaho and worked at Oak Ridge for 17 
years, was it, Dr. Wagner? And now he is working at Idaho.
    Senator King. You are lucky Senator Alexander didn't hear 
that.
    Senator Risch. Yes, oh, he will hear it.
    [Laughter.]
    Anyway, it is appropriate that he be here because the Idaho 
National Laboratory, of course, is the birthplace of nuclear 
energy in America and in the world, indeed.
    We still have the three light bulbs that we lit, the first 
three light bulbs lit with nuclear energy there. We don't use 
them regularly, but they are still there.
    In any event, because they were the birthplace of nuclear 
energy, the site has been used for decades for various things 
in the nuclear energy business and in the nuclear arms 
business. We became a waste site for a lot of the waste that 
was developed during the Cold War.
    But my point is this. In about the 1970s the State of Idaho 
was unhappy with the Department of Energy because they were not 
properly addressing, in our belief, that the waste should be 
handled properly. As a result of that, we, in Idaho, sued the 
Department of Energy and eventually entered into a consent 
decree with the Federal Government for cleanup at the Idaho 
National Lab. And all of us who were governors following that 
stood shoulder-to-shoulder behind that agreement and have 
executed that agreement. And the Department of Energy, although 
recalcitrant at the beginning, has now embraced the agreement. 
Of course, there has been a lot of turnover with the people who 
were involved and everything. But the bottom line is this. We 
have been very successful at the Idaho National Lab as far as 
cleanup is concerned. We have addressed virtually every problem 
there successfully. We're not done yet.
    Isn't that correct, Dr. Wagner? Are we--we are a long ways 
down the road though, fair statement?
    Dr. Wagner. Absolutely.
    Senator Risch. Yes.
    And so, it is important that the people who have, and we 
have had thousands of people, great people, over the years from 
all over the United States, from Idaho, who have worked on this 
and who are really smart at this. And we have proven that you 
can deal with nuclear waste and it can be cleaned up and it can 
be put into storage, semi-permanent, some temporary. But it has 
been done.
    So it is discouraging after sitting here all these years 
and not really having moved the ball very far down the field. 
We have done that in Idaho. This is a serious problem, but my 
good friend from New Mexico says we have ignored the politics. 
Gosh, I would really disagree with that. I mean, it becomes a 
political issue every time there is a Presidential campaign and 
Nevada is in play, that becomes a political issue. So, and it 
is also true here. I have seen it over the years as the Senate 
races develop in Nevada.
    There has to be a better way of doing this and I thank you 
for holding this hearing. Just as Dr. Wagner has done in Idaho, 
as we have done in Idaho, I think there is a solution but we 
are going to have to come together to do it. And hopefully, 
this bill will start the conversation.
    So thank you so much for the hearing.
    The Chairman. Thank you, Senator.
    We really do not want this to be deja vu all over again. It 
has been three Congresses now and, in the meantime, whether it 
is Yankee, it does not make any difference where you are, we 
have not been able to address the longer-term issues that must 
be addressed and folks are looking to us for that legislative 
direction.
    We have an obligation to do it. Just because it is hard and 
just because it is politically charged, just because it's 
expensive--$2.2 million a day that is just, kind of, going out 
the window--is not helping anybody.
    Let's go to Senator King.
    Senator Risch. You know, Madam Chairman.
    The Chairman. Go ahead.
    Senator Risch. You hit on a good note about the fact that 
we have an obligation to do this. It is discouraging to see 
that the nuclear energy business is going backward, that has 
been described by everybody here. Not only in America but all 
over the world people are backing away from nuclear energy and 
plants are closing. Some have reached the end of their life, 
some that have not. And yet, at the same time, there is this 
tremendous push to try to get carbon out of the air and quit 
discharging carbon in the air.
    And look, solar and wind are great generators, but they 
just do not deliver the load. At some point in time, the carbon 
fuels will run out and nuclear is going to be there. It may not 
be in this century, but future human beings on the planet are 
going to rely, very heavily, on nuclear. It is up to us to come 
up with this, resolving this bottleneck that is causing us so 
much problem.
    Thank you, Madam Chair.
    The Chairman. I appreciate that. I think we all agree that 
nuclear should be a strong part of our mix.
    But just as we are seeing facilities that are being shut 
down, what that then does to the workforce is it, too, 
dissipates and we lose the leadership that we once had. We once 
used to lead when it came to the manufacturing of nuclear 
components. We basically ceded that in so many different areas. 
We can't lose the workforce along with that.
    Let's go to Senator King.
    Senator King. Thank you, Madam Chair.
    I experienced and saw a similar thing happen in hydro. 
Major hydro developments were pretty much done in the '20s and 
when we got back into hydro in the '80s a lot of the expertise 
was gone, a lot of the engineers. There were very few firms 
that really knew how to do it. A lot of the technology was 
stuck in almost a century old.
    I find this one of the most difficult issues, and I can 
argue it both ways.
    Mr. Fettus, you present an appealing plan, state-based----
    Mr. Fettus. Thank you.
    Senator King. ----consent-based--yes, I haven't finished 
yet.
    [Laughter.]
    Don't get excited.
    State-based, consent-based, getting rid of the exemptions, 
treating it like other pollutants.
    However, what if every state says no? Which, I think, is 
not unlikely. I lived through in the '80s an effort to even 
discuss a low-level nuclear site in Maine and the outcry was 
unbelievable. What if every state says no, where are we then?
    Mr. Fettus. The same place we are now. And we have to try, 
just as Senator Murkowski is, I think, wisely leading this with 
a very open mind.
    The reason why everyone has said no repeatedly, no matter 
who it is, whether it was then Governor Alexander in Tennessee 
or the fine State of Utah with the PFS site. We actually have a 
consolidated interim storage facility that's licensed in this 
country right now that will never receive a gram of waste and 
the Committee is well aware of that and it's in Utah.
    Senator Hatch helped put in a wilderness area in order to 
block it from ever receiving that waste.
    The problem, and then I really appreciated the talk of the 
Committee that it's not just about politics. Politics are how 
we actually----
    Senator King. Politics are an expression of the public 
will.
    Mr. Fettus. Right.
    Senator King. I don't like it when somebody says we are not 
going to let politics block these things. That is the public 
speaking.
    Mr. Fettus. I couldn't agree more. And we have to take 
account of that.
    And the way we've done that remarkably in this country with 
all kinds of difficult and controversial issues are through our 
bedrock environmental statutes where we have a strong EPA that 
sets a strong foundational floor of protective standards and 
then states have delegated programs whether it's air, water, 
something else. If you build a widget factory, Senator King's 
widget factory, and you have a set of methyl-ethyl death that 
gets emitted from your factory. If your--the state can actually 
protect its citizens, its environment, its waterways, whatever.
    Senator King. Okay, but let me--assume for a moment my 
hypothetical, that we can't find a state that says yes. They 
all say no. Then, as you say, we are back where we are now. We 
have 80 so-called temporary sites. We have one in Maine costing 
us $10 million a year, costing the ratepayers and the Federal 
Government, the ratepayers through the Federal Government, $10 
million a year. That is, sort of, the fallback.
    Mr. Fettus. Well, can I do my quota, my time?
    Senator King. You don't have a countdown clock in front of 
you. You can do it if you can do it quickly.
    Mr. Fettus. Super-fast.
    Senator King. I am running out of time.
    Mr. Fettus. We have a vastly higher chance of actually 
having states get to yes if they don't have to take the entire 
burden. It also solves some of the transportation issues. They 
can do regional. They can do state.
    Senator King. Well, regional is better than one national 
anyway because of transportation.
    Mr. Fettus. Correct.
    Senator King. But the transportation routes to Nevada are, 
I have seen them, I mean, Chicago, Kansas City.
    Mr. Fettus. Almost every Congressional district.
    And but the idea----
    Senator King. And it would be two or three trains a week 
for years to take care of what we have.
    Mr. Fettus. Correct. Yup.
    Senator King. Okay.
    Mr. Nesbit. Senator, if I could interject----
    Senator King. Yes?
    Mr. Nesbit. ----that part of the problem with consent is 
who consents?
    If you look at the current situation in Nevada right now, 
the people who live closest to the repository have expressed 
their political consent for the facility there. But when you 
add----
    Senator King. I think the lady who sits next to me knows 
more about what the people of Nevada feel about----
    Mr. Nesbit. I understand that, but what I was going to add 
is when you add the additional level of government in between 
at the state level, it becomes very difficult. And no one in 
the world has solved that conundrum to date.
    Senator King. Well and I understand that. That is why I 
asked my question, what if everyone says no? Because I don't 
think that is totally unlikely.
    Let me ask a totally different question, a technical 
question.
    Why is it that we are talking about now, forever and 
always, deep holes, mines? We have these sites around the 
country, like in Maine Yankee, that you all have said are safe. 
Why not use an interim technology instead of we have to solve 
it forever, something that will allow technology to develop 
over the next 20 to 30 years and yet still be safe at a more 
centralized site? It bothers me that we have 80 sites. I don't 
think that is very secure.
    Mr. Nesbit. I think there's a couple of things there, 
Senator.
    One is that if you don't have a permanent solution, the 
ability to convince a particular location, as we've talked 
about at this hearing, to accept all this waste----
    Senator King. But if the Maine Yankee site is safe, why not 
a larger, similar site that has the same technology you are 
telling me everybody says is safe, as an interim step until we 
figure out what the best--I don't understand why we have to go 
from 80 temporary to permanent. Isn't there a step in between 
that is a logical piece?
    Ms. Korsnick. Well, that's what consolidated interim 
storage is.
    Senator King. That is what I am talking about.
    Ms. Korsnick. Yeah. And the challenge is nobody wants to 
sign up for consolidated interim storage.
    You mentioned New Mexico. The governor just recently wrote 
a letter. The last New Mexico Governor was in support of 
interim storage. The current New Mexico governor, not.
    And the challenge is because they don't want to become the 
long-term repository. And until there is an idea of a long-term 
repository, anybody that raises their hands for their 
consolidated interim storage is de facto, the long-term----
    Senator King. I think that is a good point because these 
temporary sites are now the de facto long-term sites.
    Mr. Norton. That's correct.
    Mr. Fettus. Senator, though, the actual problem we also 
face, and the Obama Administration tried to look at deep 
borehole disposal in South Dakota toward the end of its second 
term and it turned into an absolute debacle where this is red 
state South Dakota was objecting.
    And it gets precisely to the reasons that we've articulated 
today which is that when you're outside of the major functions 
or the normal functioning of environmental law, states have no 
control. So South Dakota erupted, just as New Mexico has, just 
as Nevada has been fighting for 35 years. And when you don't 
fix the institutional framework to allow the process to get to 
yes, we're never going to solve this.
    Mr. Nesbit. But I think it's important to recognize that a 
private company did conduct a deep drill hole test 
successfully. And I think what that points to is the need to 
get the management of the waste program away from the 
Department of Energy and put it into a single purpose.
    Senator King. Which is what you are suggesting.
    Mr. Nesbit. Focused organization that is dedicated to 
actual success and we have submitted in our comments, in our 
testimony, comments along those lines.
    And I think it goes----
    Senator King. The bill makes sense, but it bothers me that, 
as I understand it, the bill essentially says this is the way 
we are going to proceed except Yucca Mountain is still on a 
different track that does not require consent.
    Anyway, Madam Chairman, thank you. This is a very important 
hearing. I appreciate your conducting it.
    The Chairman. Yes, thank you, Senator King.
    I am going to turn to Senator Manchin, who has to excuse 
himself from the Committee here.
    Senator Manchin. I do, and I appreciate it so much.
    I just want to have clarification, because something is not 
making a lot of sense to me.
    You are telling me we are not filled up onsite right now so 
wherever the nuclear plants are, they are still able to have 
capacity to keep that storage there. Is that accurate?
    Mr. Nesbit. Senator, we can continue to expand onsite 
storage as needed.
    Senator Manchin. So we are not at critical mass there?
    I kind of thought we were. I was led to believe that we had 
to do something immediately.
    Mr. Fettus. We are in the pools at several sites, Senator.
    Senator Manchin. Okay.
    Mr. Fettus. In the spent fuel pools.
    Mr. Norton. If I could, Senator, what I'd like to add to 
that, however, is if you've got sites like mine where the 
reactor is fully decommissioned, all the spent fuel that's ever 
going to be generated at that site has been generated at that 
site. And yet, we sit there loaded, ready to be transported, 
waiting for some----
    Senator Manchin. I understand. I am going to get to that 
next, because now you are talking about going to interim sites. 
That doesn't make any sense to me at all because an interim 
site has to be transported again to a permanent site.
    Mr. Nesbit. Well, Senator, I would like to add and, in my 
testimony, I pointed this out, I'd like to note the difference 
between perceived risk and actual risk. And transportation of 
nuclear material is an area where perceived risk is orders of 
magnitude greater than the actual risk.
    Senator Manchin. The only thing I am saying is it looks 
like you are just creating a business model for the interim 
since we have to get to permanent.
    So why would you have these paying privately?
    Ms. Korsnick. It's really--it's all about timing.
    Mr. Nesbit. The advantage of interim is an economy of 
state.
    Ms. Korsnick. It's just a timing issue.
    If you decided today on a long-term repository site, by the 
time you license it, let's just select Yucca since we've talked 
about it, that would still be another three to five years just 
to license it today because all of the analysis has been done. 
And there's additional hearings that have to happen. Nevada has 
to have their say.
    Senator Manchin. But if we are not at capacity, why would 
we have an interim site? If it is going to be three to five 
years?
    Ms. Korsnick. That's just to get your license. It's going 
to be another decade to build it, alright. So you're already 
talking you have 15 years if you were on go today. Thirty-five 
billion is what your obligation is today, and in 15 years it's 
going to be closer to $50 billion.
    So you have to manage the liability that you are building 
on a daily basis, and the best way to help manage that 
liability is that interim storage because once you start taking 
that fuel offsite, eventually that judgment fund comes down 
because you don't have to pay the judgment fee because you've 
taken the fuel in an interim state.
    Senator Manchin. How far along are we on permitting the 
interim sites?
    Ms. Korsnick. You're nowhere.
    Senator Manchin. So whether we started today with interim 
or permanent, it is the same timetable.
    Mr. Nesbit. There's two sites that have applications in but 
whether they will actually go forward and construct those sites 
is an open question at this point.
    Mr. Fettus. Senator, there are applications but as Senator 
Heinrich just entered into the record, there will be a 
ferocious pushback for all the reasons that I've articulated 
today. And I couldn't agree more with the lack of wisdom of 
pursuing an interim site that's likely to become a de facto 
repository that doesn't solve what you and Senator Murkowski 
are trying to solve which is the long-term trajectory of how to 
solve this.
    Mr. Nesbit. Senator, the advantage of an interim site is 
that if you provide security and monitoring at one location 
versus dozens of locations, there are economies of scale 
advantages for doing that if you're going to do it for a long 
period of time.
    Mr. Norton. That's correct.
    Senator Manchin. Thank you.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair, and thanks for 
having this important hearing. I can say for the State of 
Washington, there is probably no more important discussion than 
the cleanup and disposal of high-level nuclear waste.
    And for a state that did what it was asked of us and the 
people that were there in the development of Hanford, to the 
people who have done their best at cleanup, we too want to get 
answers to this.
    I guess, I have been listening to most of the hearing, in 
and out of other things, but I agree with Senator Alexander 
that moving forward is a very necessary and positive thing. And 
I would say count me in the camp of the belief that consensus-
based approaches are more likely to generate quicker results 
than the legal and long process that we have to continue to 
play out. And that is even to say if you pass legislation, it 
just does not mean you have cleared the legal hurdles that 
continue to stymie us in these debates.
    So one of the things that Senator Alexander and others have 
referred to, and some of the witnesses have had the Blue Ribbon 
Commission and, in their discussion, our former colleague, the 
late Senator Pete Domenici, a member of that.
    One of the things that I liked about the Commission 
recommendations was that they thought that separating 
commercial and defense waste and dealing with that separately 
might be one of those near-term opportunities to make more 
progress.
    Mr. Fettus or anybody else, do you have a thought on 
continuing to look at that as a path forward?
    Mr. Fettus. I think that's a secondary issue, Senator, 
because I think fixing the----
    Senator Cantwell. Well, it is not secondary to us because 
we are the ones waiting. I forgot to put the big moniker out 
here. This is the largest nuclear waste cleanup site in the 
entire world.
    Mr. Fettus. Agreed.
    Senator Cantwell. It is complex. It is hard. We are making 
progress, but we need to get the high-level waste out.
    So let's come up with a process of moving the defense waste 
out. The complexity of Senator Feinstein's concerns on the 
commercial side are going to take us a long time to figure out.
    Just like Hanford is cleaning up some easy to clean up 
things and getting to the harder things, why can't we move 
forward on defense?
    Mr. Fettus. I think the challenge with the defense waste 
getting to a repository is going to be the same as the 
challenge with commercial spent nuclear fuel--that if you don't 
have the statutory and regulatory process that can allow 
consent in getting to yes, you won't solve it.
    That's why I meant it a second ago----
    Senator Cantwell. I am saying, we are saying the same 
thing.
    Mr. Fettus. Yup.
    Senator Cantwell. I want a consent process that is faster. 
If they will take that, I am just saying, streamline defense so 
it can get done faster as you deal with all the other aspects.
    Mr. Fettus. If you can get all the waste out of the tanks 
and get it vitrified and get it ready, that would be great.
    Senator Cantwell. Well, this is, believe me, a day-to-day 
task----
    Mr. Fettus. Yes.
    Senator Cantwell. ----for us in the State of Washington, 
but we are only doing it on behalf of the entire United States 
and part of stewardship. This should be every member of this 
Committee's responsibility. This is a responsibility of the 
United States of America, not just the State of Washington or 
environmental director.
    But I will tell you as we fight every time on some idea 
that is shortchanging the cleanup process or an idea, we are 
desperate to move the defense waste in a way in which people 
are saying to us, we want it and we will take it and we want to 
explore those ideas and see if we cannot move forward.
    So thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman. It 
is good to be here. I want to thank you and Ranking Member 
Manchin for holding this important hearing this morning.
    This Congress, this Committee has discussed exciting and 
innovative ways to address climate change. We have explored 
carbon capture technologies, renewable resources and advanced 
nuclear power and nuclear energy.
    In several of the hearings, witnesses have stressed that 
nuclear energy is an essential part of our clean energy 
portfolio. If we are serious about addressing climate change, 
we must be serious about preserving and expanding the use of 
nuclear energy. We cannot do it without nuclear energy. So the 
lack of a nuclear waste management program limits the use and 
the expansion of nuclear power.
    In May, I chaired an Environment and Public Works Committee 
hearing on my discussion draft legislation that would 
complement and could complement Senator Murkowski and Senator 
Alexander's nuclear waste legislation.
    Eight states right now have new bans, bans on new nuclear 
until Washington permanently disposes of nuclear waste. 
Communities across the country are struggling to accept new 
nuclear plants because there is no permanent pathway to remove 
the nuclear waste.
    I am glad this Committee is holding this hearing to address 
these challenges.
    Ms. Korsnick and Mr. Nesbit, American ratepayers have now 
paid about $15 billion to site, to study and to design a 
repository for the Yucca Mountain site. And of this funding, 
$200 million was paid to the State of Nevada to develop their 
own scientific and technical analysis.
    Ms. Korsnick, why is it important for the Nuclear 
Regulatory Commission to complete the independent safety review 
of the proposed Yucca Mountain repository?
    Ms. Korsnick. Well, you just mentioned the significant 
money that has been expended. We should have a fair hearing 
and, quite frankly, give Nevada a chance to have their hearing.
    The process will require that it goes through the judges, 
et cetera, through the licensing process and for all this money 
that has been expended, let's understand the science and the 
licensing process and work ourself through it.
    In the future, we might need another long-term repository, 
so let's learn everything that we can and understand the 
science and the licensing process for the one that's so far 
along.
    Senator Barrasso. Following up on that, Mr. Nesbit, why is 
it important----
    Mr. Nesbit. I knew what you meant.
    Senator Barrasso. Okay.
    You note that the Nuclear Regulatory Commission's Yucca 
Mountain licensing review is valuable. And it is valuable to 
inform safety regulations for a different repository site.
    Is it also important to complete the pending licensing 
process to build that public trust?
    Mr. Nesbit. Absolutely. I agree with everything that Ms. 
Korsnick said.
    There's other reasons why it is beneficial for the American 
people to go forward and complete the licensing even if Yucca 
Mountain isn't built. I mean, we don't know what the answer is 
until we do it. I mean, if something is found that said this is 
not the right place to do it, we've got to go find another 
solution. But we need to go through the process in order to 
demonstrate the ability to license a geologic repository for 
used fuel and high-level radioactive waste here in the United 
States. We're going to learn a great number of lessons from 
that. And having invested $15 billion already, I think it only 
makes sense to get a little more return for that huge 
investment.
    And the only other thing I'll say along those lines is it 
is the law that we do that. I think that if we demonstrate that 
we're going to follow the law here, if we change the law and do 
something different later, then people will believe that we'll 
follow the law there too.
    Senator Barrasso. Okay.
    Along those lines, back to you, Ms. Korsnick.
    Like Senator Murkowski's bill, my Nuclear Waste Discussion 
Draft allows the Secretary of Energy to partner with private 
companies to store spent nuclear fuel on an interim basis. Mr. 
Nesbit just talked about other sites. The draft requires the 
interim storage program to proceed at the same time as the 
Nuclear Regulatory Commission's review of the Yucca Mountain 
license application.
    Do you support a requirement that interim storage is 
connected to tangible action on a permanent repository for 
nuclear waste?
    Ms. Korsnick. Yes, in fact, we think it enables that 
interim storage because people will see, alright, you have this 
path for a long-term answer. I'm happy to participate in your 
shorter-term answer because I understand that this pathway 
exists.
    Senator Barrasso. Finally to Dr. Wagner, if I could.
    The Idaho National Lab is a leader, a real leader, in 
developing advanced nuclear technologies. It is also the 
proposed site of the nation's first small modular reactor which 
is going to provide nuclear power to the intermountain West.
    Advanced nuclear reactors can increase safety, I believe, 
can decrease cost, can reduce the amount of nuclear waste. So 
while advanced nuclear can reduce nuclear waste, will there 
still be nuclear waste products that must be permanently 
disposed of?
    Dr. Wagner. Yeah, the short answer is yes.
    There's a variety of advanced reactor concepts that can 
significantly increase fuel utilization. There's also different 
concepts that Maria spoke about earlier that close the nuclear 
fuel cycle through reprocessing. But at the end of the day 
there are always going to be some small amount of material that 
requires deep geological repository.
    Senator Barrasso. Yes, thank you. Thank you, Madam 
Chairman.
    The Chairman. Thank you, Senator.
    I was going to ask a question about what is the number? How 
many additional storage facilities, long-term repositories, do 
we need?
    As I am thinking about that, it is like, well, we don't 
know because of exactly what you have said, Dr. Wagner, moving 
forward. What will the future of nuclear bring to us in terms 
of advanced nuclear and the prospect for less waste?
    We have talked about reprocessing. I think we know what we 
know today, but the innovation, that is out there is still 
evolving, if you will. The view into the deep boreholes. We may 
be looking at Yucca as okay, this is the design for what we 
needed 20 years ago but is it the design that we need going 
forward? And so, I think we need to factor that into the 
calculus.
    The question for those of you who have looked at the 
legislation that we have laid down here as our working 
document, do you think we do enough in this proposed 
legislation to be specific about the type of research and 
development that DOE or the Administration needs to move 
forward on? Do we need to do more in that we have been talking 
so much about this whole consent-based process and the interim 
and moving to permanent, but we have not really talked about 
some of the context of this bill that can move the industry 
forward. Do we have enough in there? Do we need to do more?
    Mr. Norton?
    Mr. Norton. Yes, Senator, if I could.
    Madam Chairman, a couple things I wanted to reflect on in 
your question, and I had this conversation with Maria's 
predecessor, Marv Fertel, probably six or seven years ago when 
my sites and the other decommissioning plant coalition sites, 
at the time there were five of us, were kind of the poster 
children of this problem, right?
    The Chairman. Right.
    Mr. Norton. We operated the plant. We've decommissioned the 
plant. We're waiting.
    I told him at that point in time there was less focus on it 
both at NEI and the industry than there is today, but I did 
tell him on the path we're at then and potentially the path 
we're on now, more than 50 percent of our nuclear fleet will be 
in the same condition I'm in before we solve this problem if we 
keep trying the same thing we've been trying for the last 20 
years. And I don't think he believed me. But if he was watching 
it today, with the number of plants that have either shut down 
or announced shut down, my estimate is not going to be far off, 
even if we get moving from here.
    And so, it is a clear problem. It is a clear issue. I think 
Senate bill 1234, although we have comments that would make 
recommendations on changes, is a good starting point for us to 
work together to figure out how to resolve this problem because 
what we have been doing for the last 20 years is not going to 
work.
    I would also like to acknowledge my Senator from Maine, 
Senator King, and his question about are we really thinking 
about this the right way? And I think that needs to be asked.
    I know there's scientists and others that may have a 
difference of opinion here, but I do think we have to challenge 
ourselves as to did we really plot the right course with our 
original plan for a repository and is there an alternative way 
to think about this? By consolidating this waste, looking at 
either reprocessing or other technical advancements, other 
options that other countries are looking at and take the 
blinders off and look at this more holistically.
    The Chairman. I appreciate that.
    Mr. Nesbit.
    Mr. Nesbit. Senator, I'd just like to add a couple of 
things.
    One is American Nuclear Society does support continued 
research into advanced nuclear energy systems and advanced 
waste management techniques. There's actually private companies 
out there that are working in this area as well.
    I think the question of where that needs to reside, whether 
it's in your bill or in other legislation is a good question. I 
think the work that John Wagner and others are doing at Idaho 
is, they are looking at advanced energy systems in a holistic 
manner that includes the waste management issue, and I think 
they need to continue that work.
    The Chairman. Got it.
    Mr. Fettus.
    Mr. Fettus. And Senator, the Blue Ribbon Commission wisely 
cautioned against trusting in reprocessing as any meaningful 
solution for nuclear waste and the offramp, it's past time for 
the offramp on recycling of spent fuel in this country. It's 
both dangerous proliferation and security concerns. It creates 
more waste and it will not solve the waste problem, and no 
country has used it to solve their waste problem. And most of 
all, it's not economical and the BRC identified that it likely 
never will be.
    The Chairman. Dr. Wagner, you want to respond to that?
    Dr. Wagner. Well, I would just comment that, you know, we 
don't currently recycle because it's not economical.
    You know, one of the many benefits talked about with 
respect to consolidated interim storage is that whether in time 
it becomes economical with a substantial growth in nuclear 
energy or other technologies for waste disposal and design of 
repositories come into play. A consolidated interim storage 
facility allows you to make progress to move forward on this 
issue while some of those other things may or may not come to 
be other options for the material.
    The Chairman. I appreciate that.
    We have just had a vote start. I would like to allow my 
colleagues an opportunity for a last word, if they would like.
    Senator Cortez Masto.
    Senator Cortez Masto. Actually, I do, thank you, Madam 
Chair.
    Mr. Nesbit, I sat here and listened to you. Thank you for 
being here. The arguments you make are the same arguments I 
have heard for the last 30 years from the industry. But you 
make one argument that talks about Yucca Mountain being 
utilized to learn from the science and that is why it should 
move forward. I think we should learn from the science from 
Yucca Mountain because there are no natural barriers or man-
made barriers that make it safe. But we keep hearing that all 
the time.
    So let me ask you this, if we were to learn from the 
science of Yucca Mountain which would require still 40 more 
miles of tunnel to be, to dig the tunnel to bury the canisters, 
which by the way, the same canisters that are utilized for 
Yucca Mountain in the study can't be utilized because the 
industry does not use the same type of canisters. But what I am 
told it is so hot once it is stored and it leaks like a sieve 
because the hydrology shows already in exploratory tunnel, it 
leaks like a sieve. That once the canisters are there, titanium 
drip shields will have to be created to put over the canisters. 
And by the way, those titanium drip shields would not be placed 
in that facility once the canisters are here until 90 years 
later and it cannot be placed by a man in there, so you have to 
build robotics to put the titanium drip shields to protect the 
water that goes down into the canisters that would go into the 
aquifer below. Is that the science you are saying that you 
would learn from that you should not have in any other 
repository?
    Mr. Nesbit. What I was referring to, Senator, was 
completing the licensing process and having the concerns, such 
as you just expressed, evaluated by a panel of experts and 
ruled on in a manner that we can learn from them, if indeed we 
go on to develop other repositories elsewhere. That's all I'm 
talking about.
    Senator Cortez Masto. We already have the information, and 
that is my point.
    Mr. Nesbit. Well, Senator, I don't agree with your 
concerns.
    Senator Cortez Masto. We have spent $19 billion on a five-
mile exploratory tunnel to study the geology and hydrology. We 
know that because it is a volcanic tuff and there are fractures 
through the rock that it's going to leak. So that is why the 
titanium drip shields are part of your plan for the canisters 
that will be placed there.
    That is what I am saying. We already have the information 
that shows it is not safe. Why are we going to waste another 30 
years with 218 contentions by the state and lawsuits that I 
know I was part of as Attorney General, against your 
department, or excuse me, against the Department of Energy, 
instead of looking forward in a comprehensive approach and 
utilizing the science to help us understand in moving forward 
on the new technology that is out there. That is all I am 
looking for, and I would love for the industry to come to the 
table and work with us on that.
    Thank you.
    Mr. Nesbit. The key question at Yucca Mountain is not 
whether it's built in volcanic tuff, but whether it can or 
cannot comply with the very conservative environmental 
standards that were laid down to protect the health and safety 
of the public. And that's the question that would be resolved 
in a licensing hearing before fair, impartial and qualified 
judges.
    Senator Cortez Masto. I disagree.
    But now that I have more time, let me add a little bit more 
to this because I think for purposes of science, we really are, 
and I would ask the scientists here, isn't the intent here to 
decrease any type of unexpected opportunities with respect to 
science?
    You want a place that is safe, that you are going to 
decrease any vulnerabilities with respect to that deep geologic 
site instead of adding to those vulnerabilities by man-made, 
alleged safety barriers or natural safety barriers. You are 
going to decrease those kind of vulnerabilities. And isn't that 
what you're really looking for, for any type of site, a deep 
geologic site?
    And maybe, Mr. Fettus, I don't know if you have a response 
to that?
    Mr. Fettus. I couldn't agree more, Senator Cortez Masto.
    The idea behind any geologic repository is to find geologic 
media that can isolate the waste for the length of time it's 
dangerous. And the problem that the Yucca Mountain project has 
repeatedly run into is whenever it ran into the technical 
challenges that you so accurately describe, the response was to 
weaken the standards to allow the site to be licensed. So we 
don't look at that upcoming atomic safety and licensing board 
proceeding, if it were to ever go forward, as a full exercise 
in having the state have a fair say.
    Senator Cortez Masto. Thank you.
    Ms. Korsnick. If I could just add, since we were talking 
about drip shields, we do know that EPRI did an analysis back 
in 2008 and they found that the repository was capable of 
meeting the regulatory requirements without the drip shields, 
that they had sufficient defense in depth. The drip shields 
were designed simply as an additional redundant layer of 
protection. I just wanted to make sure that that was clear.
    Senator Cortez Masto. Right, but still the drip shields are 
there as a redundant layer and that is the point. And you are 
supposed to be reducing those types of additional redundancies, 
aren't you, as supposedly having the natural redundancies there 
and then adding them as necessary.
    Again, I am all for moving forward. I think we have to have 
a solution here, and I think we have to be smart about it.
    This is waste that is going to be there for millions of 
years, for generations to come for our children and our 
grandchildren, and we have to do right by them. We have to be 
coming together, particularly in this country, to address this 
issue.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    And to our panel, we appreciate your contribution this 
morning. We all acknowledge that we have an issue that has been 
a longstanding issue that has not been resolved and our effort 
will be to defy the skeptics and to change the status quo 
which, quite honestly, has been going on for far too long.
    I do not want Senator Risch to be sitting here in this 
Committee five years from now in a similar hearing and saying, 
I remember back in 2019 we were talking about it and it was the 
same as it was when I first came to the Committee.
    We have an obligation. We have good folks working on 
things. So let's try to address this very longstanding problem.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:55 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]

</pre></body></html>
